 

LEVIN LEGAL GROUP

ATTORNEYS AT LAW MICHAEL IRA LEVIN
PHONE 215.938.6378 ALLISON S. PETERSEN
PAUL J. CIANCI
1800 BYBERRY ROAD DAVID W. BROWN
1301 MASONS MILL BUSINESS PARK RICHARD B. GALTMAN
HUNTINGDON VALLEY, PENNSYLVANIA 19006 JAMES J. MUSIAL
MICHAEL T. SWEENEY
SENDER’S EMAIL: dbrown@levinlegalgroup.com JULIA ANN LEVIN

SENDER’S MOBILE: (856) 558-2045
Or COUNSEL:

ANNE E. HENDRICKS

March 23, 2021

Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543

Re: Campbell v. Pennsylvania School Boards Assoc., et al., No. 20-1294
Dear Mr. Harris:

On behalf of all Respondents, I am writing pursuant to Supreme Court Rule 30.4 to request
a 30-day extension of time within which to file Respondents’ brief in opposition to the petition for
writ of certiorari in the above-captioned matter. If granted, the extension of time would change
the due date for the brief from April 16, 2021 to May 17, 2021 7

Respondents seek this extension in light of competing professional and personal

obligations for myself and lead counsel Michael I. Levin. Mr. Levin and I are working on

significant briefs and discovery matters, including: (1) a Reply Brief in support of a motion for

The extension of time would extend to a 31“ day because May 16, 2021 is a Sunday.
Mr. Scott S. Harris, Clerk
March 23, 2021
Page 2

summary judgment in Aspira v. School Dist. of Philadelphia, No. 19-CV-04415-JS (E.D. Pa.), due
March 26; (2) motions in limine and a pretrial memorandum in Aspira, supra, due March 26 and
April 6, respectively, (3) a motion for summary judgment in Montemuro v. Jim Thorpe Area School
Dist., No 320-CV-208-RDM (M.D. Pa.), due April 15; (4) objections to the Report and
Recommendation of the Magistrate Judge in Montemuro due March 29; and (5) several depositions
in the matter of Cartee-Haring v. Central Bucks School Dist., No. 2:20-cv-01995 (E.D. Pa.).
Furthermore, both Mr. Levin and I are preparing with arguing counsel, Ms. Lisa Blatt, for oral
argument before this court on April 28 in Mahanoy Area School Dist. v. B.L., No. 20-255. These
and other previously scheduled engagements and personal and professional commitments,
including the Easter and Passover holidays, during the initial 30-day response period would make
it difficult for counsel to prepare the response in this case.

The petition for a writ of certiorari was filed on March 15, 2021 and placed on the docket
on March 17, 2021, creating the current April 26 response date. I have communicated with Jacob
Cohn, counsel for the Petitioners, regarding this request, and he has stated that he does not object.

Thank you for your attention to this matter. Please feel free to contact me with any
questions regarding this request.

Respectfully submitted,
LEVIN LEGAL GROUP, P.C.

David W. Brown, Esq.

ce: Jacob Cohn, Counsel for Petitioners (via e-mail and U.S. mail)
Ilan Rosenberg, Counsel for Petitioners (via e-mail and U.S. mail)
Michael I. Levin, Counsel for Respondents (via e-mail)
